No.

 

Iu The
Supreme Court of the Anited States

KEITH A. TUCKER; LAURA B. TUCKER,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel of record for Petitioners Keith A. Tucker and
Laura B. Tucker, and a member of the Bar of this Court, hereby certify that on the
2nd day of July, 2019, I caused to be served three (3) copies of the Petition for a Writ
of Certiorari in the above-referenced case by first-class mail, postage prepaid, upon

counsel for Respondent as listed below:
Noel Francisco

Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.

I further certify that all parties required to be served have been served.

By. Pr. poy v- Tne
Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioners
